KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

July 29, 2020
Via Federal Express
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
sharris@supremecourt.gov
Re:

David McMahon, et al., v. Gregory L. Fenves et al., No. 20-64

Dear Mr. Harris:
I represent Respondent Gregory L. Fenves in this matter. Pursuant to Supreme
Court Rule 35.3, please note that Mr. Fenves, who was a party to this proceeding in
his official capacity as President of the University of Texas at Austin, has left his
position. He was succeeded by Interim President Jay Hartzell on July 1, 2020. Mr.
Hartzell should be automatically substituted as a respondent in place of Mr. Fenves.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc:

Warren V. Norred (via e-mail)
Jackie Stroh (via e-mail)

Pos t Of fic e Bo x 125 48 , Aus ti n, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor ne y ge ne r a l. gov

